V!

bXK

1

!

I

■i

■■

Z ip^es

i

Case: 19-35936,12/09/2020, ID: 11919767, DktEntry: 13-1, Page 1 of 2

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

DEC 9 2020

FOR THE NINTH CIRCUIT
KENT GLEN WILLIAMS,
Plaintiff-Appellant,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-35936
D.C.No. l:18-cv-00343-DCN

v.
MEMORANDUM*
ALAN STEWART, Clerk; et al.,
Defendants-Appellees,
and
CHIEFS OF PRISONS, From May 2016 to
Present,
Defendant.
Appeal from the United States District Court
for the District of Idaho
David C. Nye, District Judge, Presiding
Submitted December 2,2020**
Before:

WALLACE, CLIFTON, and BRESS, Circuit Judges.

Idaho state prisoner Kent Glen Williams appeals pro se from the district

*
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

i

Case: 19-35936,12/09/2020, ID: 11919767, DktEntry: 13-1, Page 2 of 2

court’s judgment dismissing his 42 U.S.C. § 1983 action alleging various
constitutional violations. We have jurisdiction under 28 U.S.C. § 1291. We
review for an abuse of discretion a district court’s dismissal under its local rules.
Ghazali v. Moran, 46 F.3d 52, 53 (9th Cir. 1995). We affirm.
The district court did not abuse its discretion in dismissing Williams’s action
because Williams failed to comply with the 20-page limit for pro se prisoner
pleadings in civil rights cases as ordered by the district court and as set forth in
Idaho General Order No. 342. See id. at 53-54 (setting forth factors to be
considered before dismissing an action for failure to follow the local rules and
noting that pro se litigants are bound by the rules of procedure).
Williams’s request for reimbursement of his filing fee, set forth in the
opening brief, is denied.
AFFIRMED.

2

19-35936

Ordtr o
5

I pt-jL.

Case l:18-cv-00343-DCN Document 21 Filed 10/24/19 Page 1 of 5

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO

KENT WILLIAMS,
Case No. l:18-cv-00343-DCN
Plaintiff,
ORDER OF DISMISSAL
v.
CLERK STEWART, et ah,
Defendants.

On April 15, 2019, the Court reviewed Plaintiffs Complaint to determine whether
it or any of the claims contained therein should be summarily dismissed under 28 U.S.C.
§§ 1915 and 1915A, The Court noted that the Complaint violated General Order 342, In
Re: Procedural Rulesfor Prisoner Civil Case Filings andfor Prisoner E-Filing Program.
The Court allowed Plaintiff 28 days to file an amendment that did not exceed 20 pages.
(Dkt. 9 at 24 and n.5.) The Court also notified Plaintiff that, if the amendment failed to
comply with the Court’s order, this case could be dismissed without further notice under
Rule 41(b) ofthe Federal Rules of Civil Procedure. (Id. at 28 n.8.)
Instead of filing a complying amendment within 28 days, Plaintiff filed motions
seeking a stay, asking for clarification, and requesting an extension of time. The Court
granted Plaintiffs request for an extension to file an amended complaint. (Dkt. 12.)
Plaintiff was permitted to file a single amended complaint—the Court did not authorize

ORDER OF DISMISSAL -1

Case l:18-cv-G0343-DCN Document 21 Filed 10/24/19 Page 2 of 5

Plaintiff to file multiple amended complaints, in a single case, covering different claims.
(id.)
Plaintiff has now filed not one, but two amended complaints. (Dkt. 17 & 19.) Both
pleadings exceed the 20-page limitation set forth in (1) General Order 342, and (2) the
specific Initial Review Order (Dkt. 9) in this case. Plaintiff has also filed a motion asking
that he be excused -from complying with the page limitation, as well as several other
motions. (Dkt. 13,14,15,16, & 18.)
Plaintiff argues that the 20-page limitation violates (1) his right to due process and
equal protection, (2) the Prison Litigation Reform Act of 1995 (“PLRA”), and (3) the
doctrine of retroactivity. (Dkt. 14 at 2-4.) Plaintiff is mistaken.
This Court has broad inherent authority to control its docket and issue litigation
management decisions, including decisions to impose page limitations. Ferdik v.
Bonzelet, 963 F.2d 1258, 1260 (9th Cir. 1992); Traylor Bros. v. San Diego Unified Port
Dist., Case No. 08-CV-1019-L WVG, 2012 WL 1019966, at *2 (S.D. Cal. Mar. 26, 2012)
(“Given the district court’s inherent power to control [its] docket[], whether to grant leave
to exceed the page limits set forth in the Civil Local Rules appears to be at the full
discretion of the Court.”). Such management decisions are proper so long as they are an
appropriate exercise of discretion and do not violate a litigant’s due process of law. S.
California Edison Co. v. Lynch, 307 F.3d 794, 807-08 (9th Cir.), modified, 307 F.3d 943
(9th Cir. 2002), and certified question answered sub nom. S. California Edison Co. v.
Peevey, 31 Cal. 4th 781, 74 P.3d 795 (2003).

ORDER OF DISMISSAL - 2

Case l:18*cv*00343-DCN Document 21 Filed 10/24/19 Page 3 of 5

Due process requires notice and an “opportunity to be heard at a meaningful time
and in a meaningful manner.” Mathews v. Eldridge, 424 U.S. 319, 333 (1976) (internal
quotation marks and citation omitted). Here, the Court notified Plaintiff that it was
imposing a 20-page limitation on any amended complaint and gave Plaintiff an opportunity
to submit a complying amendment. That Plaintiff chose not to do so is no fault of this
Court. Plaintiff also had the opportunity to file the instant motion objecting to the page
limitation. Due process has been satisfied in this case as to the imposition of the 20-page
limitation.
Nor does the Equal Protection Clause excuse Plaintiff from complying with the
Court’s page limitation. Because prisoners are not a suspect class, there need only be a
rational basis to support the 20-page limit on prisoner complaints. Glauner v. Miller, 184
F.3d 1053, 1054 (9th Cir. 1999).
Without question, page limitations are rationally related to the Court’s legitimate
interest in managing its docket. As one court has put it,
Judges impose page limits for a reason. They force parties to
hone their arguments and to state those arguments succinctly.
Page limits cause, or should cause, parties to dispense with
arguments of little or no merit in favor of those arguments that
have a better chance of carrying the day. They encourage
parties to avoid redundancy. And repetition.
Kernan v. C.I.R., 108 T.C.M. (CCH) 503 (T.C. 2014) (footnotes omitted), aff’d sub
nom. Kernan v. Comm V ofInternal Revenue, 670 F. App’x 944 (9th Cir. 2016). And, this
Court imposed the 20-page limitation “to increase the efficiency and effectiveness of the
limited public resources allocated to managing and adjudicating prisoner civil rights

ORDER OF DISMISSAL-3

Case l:18-cv-00343-DCN Document 21 Filed 10/24/19 Page 4 of 5

cases. ” G.O. 342(A), p.l (D. Idaho, Feb. 7, 2019). Because the Court’s 20-page limitation
is supported by a rational basis, Plaintiffs equal protection argument fails.
As for the PLRA, that Act places numerous limitations on civil actions filed by
prisoners. See Pub. L. No. 104-134, 110 Stat. 1321. It does not grant prisoners any
substantive or procedural right that supersedes this Court’s inherent power to impose page
limitations.
Finally, nothing prohibits the “retroactive” application of a General Order that
imposes procedural requirements, such as the page limitation that the two amended
complaints exceed in this case. The doctrine of retroactivity relates to constitutional law,
not to a court’s litigation management decisions.1 The doctrine does not apply to the
Court’s issuance of General Order 342, because there is no constitutional right to file a
civil pleading that exceeds the page limitations imposed by a federal court. And even if
General Order 342 did not apply to Plaintiffs complaint of its own force, the Court would
apply—and, in fact, did apply—a 20-page limitation on any amended complaint in this
case in any event. (Dkt. 9 at 28.)
Because Plaintiff has failed to comply both with General Order 342 and with the
Court’s Initial Review Order, the Court will dismiss this case under Rule 41 (b).
/
/

ORDER
IT IS ORDERED:
1.

Plaintiffs Objection to or Motion Not to Impose General Order 342 (Dkt

1 Pursuant to retroactivity principles, new rules of constitutional law do not apply retroactively to cases on collateral
review unless the new rule is a substantive rule or a watershed rule of criminal procedure. Teague v. Lane, 489 U.S.
288,305-10(1989).

ORDER OF DISMISSAL - 4

i

Case l:18-cv-00343-DCN Document 21 Filed 10/24/19 Page 5 of 5

14) is DENTED.
2.

This case is DISMISSED with prejudice for failure to comply with a Court
order. See Fed. R. Civ. P. 41(b).
All remaining pending motions (Dkt. 13, 15s 16, and 18) are DENIED AS
MOOT.

DATED: October 24, 2019

David C. Nye
Chief U.S. District Court Judge
0

ORDER OF DISMISSAL-5

Case l:18-cv-00343-DCN Document 22 Filed 10/24/19 Page 1 of 1

i

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO

KENT WILLIAMS,
Case No. l:I8-cv-00343-DCN
Plaintiff,
JUDGMENT
v.
CLERK STEWART, et al.,
Defendants.

In accordance with the Order of Dismissal filed on this date, IT IS ORDERED,
ADJUDGED, and DECREED that this case is dismissed with prejudice. Additionally,
this case is ordered closed.

DATED: October 24, 2019

David C. Nye
Chief U.S. District Court Judge

JUDGMENT -1

i

"D . tioJ
en
Z. p^S

For Re.Ke.annj
I

Ip

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 29 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

KENT GLEN WILLIAMS,
Plaintiff-Appellant,
v.
ALAN STEWART, Clerk; et al.,

No. 19-35936
D.C. No. l:18-cv-00343-DCN
District of Idaho,
Boise
ORDER

Defendants-Appellees,
and
CHIEFS OF PRISONS, From May 2016 to
Present,
Defendant.
Before:

WALLACE, CLIFTON, and BRESS, Circuit Judges.

Williams’s motion to accept a late petition for rehearing en banc (Docket
Entry No. 15) is granted.
The mandate is recalled for the limited purpose of considering the petition
for rehearing en banc.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Williams’s petition for rehearing en banc (Docket Entry No. 15) is denied.

The mandate will reissue forthwith.
No further filings will be entertained in this closed case.

2

19-35936

Case: 19-35936, 04/29/2021, ID: 12096843, DktEntry: 19, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

APR 29 2021
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

KENT GLEN WILLIAMS,
Plaintiff - Appellant,
v.

ALAN STEWART, Clerk; et al.,

No. 19-35936
D.C.No. 1:18 -cv-00343-D CN
U.S. District Court for Idaho, Boise
MANDATE

Defendants - Appellees,
and
CHIEFS OF PRISONS, From May 2016
to Present,
Defendant.

The judgment of this Court, entered December 09, 2020, takes effect this
date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Jessica Flores
Deputy Clerk
Ninth Circuit Rule 27-7

i

<2-Al<LCa\ Ofckf

bio. I'll

C
i

f

1

UNITED STATES DISTRICT COURT
DISTRICT OF IDAHO

IN RE: PROCEDURAL RULES
FOR PRISONER CIVIL CASE
FILINGS AND FOR PRISONER
E-FILING PROGRAM

A.

GENERAL ORDER NO. 342

ALL PRO SE PRISONER NON-HABEAS CIVIL FILINGS
The United States District Court for the District of Idaho (the Court) finds it

necessary and appropriate to implement new prisoner filing procedures to increase the
efficiency and effectiveness of the limited public resources allocated to managing and
adjudicating prisoner civil rights cases.
General procedures that apply to all non-habeas civil filings (paper and electronic)
of pro se prisoners and their opponents (whether pro se or represented) in federal, state,
and county custody are as follows:
1. A complaint or any type of amended complaint will be limited as follows:
a. A complaint or any type of amended complaint may be no more than
20 pages in length.
b. No exhibits may be attached to a complaint or any type of amended
complaint, except those showing exhaustion of administrative

General Order No. 342

Page 1

remedies.
c. No affidavits may be attached to a complaint or any type of amended
complaint. Instead, affidavits must be exchanged with disclosure
statements or attached as exhibits to motions, responses to motions,
or replies to motions.
d. Multiple plaintiffs cannot bring claims in the same complaint unless
plaintiffs meet the permissive joinder requirements in Federal Rule
of Civil Procedure 20(a)(1)—that at least one claim of all plaintiffs
“arisfes] out of the same transaction, occurrence, or series of
transactions or occurrences” and raises “a question of law or fact”
common to all plaintiffs.
e. Claims against multiple defendants within a complaint or any type of
amended complaint must meet the requirements in Federal Rule of
Civil Procedure 20(a)(2)—that at least one claim against all
defendants must “arisfe] out of the same transaction, occurrence, or
series of transactions or occurrences” and raise “a question of law or'
fact common to all defendants.” Claims that do not meet these
standards must be separated into different lawsuits. 1

See, e.g., George v. Smith, 507 F.3d 605, 607 (7th Cir. 2007) (in PLRA context: “A buckshot complaint
that would be rejected if filed by a free person—say, a suit complaining that A defrauded the plaintiff, B
defamed him, C punched him, D failed to pay a debt, and E infringed his copyright, all in different
transactions—should be rejected if filed by a prisoner.”).
General Order No. 342

Page 2

2. Motions and responses to motions will be limited to no more than 20 pages

each. Replies in support of motions will be limited to no more than 10
pages.
3. Parties need not include a “standard of law” section in a response to a

motion if it repeats the standard of law set forth in the underlying motion,
but instead may indicate their agreement with that standard and address any
additions or disagreements.
4. Parties must not file notices or letters to inform the Court of facts or issues

about the subject matter of the case or prison access to courts issues.
Notices are to notify the Court of procedural changes, such as changes of
address or permissible notices filed by attorneys, such as representation
issues. Parties must not use notices or letters to ask the Court to make a
decision, but instead must file a motion.
5. Affidavits and exhibits that do not support a motion, a response to a
motion, or a reply to a motion may not be filed. Rather, affidavits and
exhibits are to be filed as attachments in support of a motion, a response to
a motion, or a reply in support of a motion.
6. An exhibit may be filed only once in any action, regardless of which party
filed it first. A party must refer to an exhibit already filed by referencing the
filed document by name and date filed, and/or by docket number.
7. Prison policies, directives, and standard operating procedures may not be

filed as exhibits, unless they are not current versions. Rather, current
Genera! Order No. 342

Page 3

ii

versions may be referenced by title and number and the phrase “available
online.”
8. Making paper copies for the Court is no longer needed, unless ordered by
the Court.
9. A standard disclosure and discovery order issued in each case will apply in
all pro se prisoner non-habeas civil cases. The standard order is designed to
make prisoner litigation more disclosure-oriented and less discoveryoriented, based on the Court’s experience that (1) defendants in prisoner
lawsuits tend to hold a disproportionate share of the information and items
relevant to a lawsuit, and (2) prisoners often propound discovery that is
disproportionate to the needs of the case.
B.

PRISONER E-FILING PROGRAM
Following a successful prisoner civil case e-filing pilot program at a single prison

facility, the Court is extending implementation of the program to such other prison
facilities that can accommodate the program, to be determined at the sole discretion of
.prison officials.

...

_____

_

Adoption of this General Order is not intended to create any personal right or
private cause of action for any prisoner based on the extent or lack of an e-filing program
in any particular prison facility. Prisoners who are transferred among facilities must use
the access to courts program provided at the prison where they reside, regardless of
whether the prisoners were or were not previously using the e-filing program at another
facility.
General Order No. 342

Page 4

i

This procedure substantially reduces the amount of time the Clerk of Court and
Court Staff spend processing prisoner court filings. It also significantly reduces public
and prisoner expenditures for postage, paper, envelopes, and copier supplies.
General procedures for the e-filing program are as follows:
1. Prisoners who have access to the e-filing program must file all documents
in their civil actions via the e-filing program, with the limited exceptions
identified in subsection B(3).
2. The Cleric of Court and the prison will develop and coordinate prisoner efiling procedures to implement the program, which may be modified from
time to time.
3. Prisoners will present their original documents to designated prison staff for
scanning during the regular business hours of the legal resource center.
Staff will place a scan receipt stamp on the original prisoner document,
scan the document to transmit it via email to a designated court email inbox
address on the same day the document is received from the prisoner, and
return the document to the prisoner. If a document fits within an exception
for an authorized mailed filing, prison staff will approve the documents for
prisoner mailing and issue the prisoner an approval notice to accompany
the mailing.
4. The Court will e-file the prisoners’ documents within the ECF system upon
receipt of the email from prison staff. The official filing date and time of a
document filed electronically will be the date and time (MT) the document
General Order No. 342

Page 5

is electronically received by the Court. Where applicable, the “mailbox
rule” filing date will be the date the prisoner places the document into the
hands of prison staff for e-filing.
5. Even though prison staff will file prisoners’ documents electronically, the
prisoners will not be registered ECF participants. Therefore, the rules for
regular and electronic service of pleadings and papers will apply, as set
forth in the Federal Rules of Civil Procedure and the Local Rules of Civil
Practice before the United States District Court for the District of Idaho.
Parties who are registered ECF participants will receive only an electronic
copy of the prisoners’ filings. Likewise, parties who are registered ECF
participants will serve documents upon non-registered ECF participants
(including prisoners) by mail or other means as set forth in the Rules.
6. Should federal or county facilities desire to implement an e-filing program
for prisoners, program officials and court staff will work together to design
and implement a system substantially similar to the one described above.
DATED: February 7, 2019

David C. Nye
Chief United States District Judge

General Order No. 342

Page 6

.

2-1 IP*?45

I

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
KENT WILLIAMS,
Case No. l:18-cv-00343-DCN
Plaintiff,
INITIAL REVIEW ORDER BY
SCREENING JUDGE

v.
CLERK STEWART, et al.,
Defendants.

The Clerk of Court conditionally filed Plaintiff Kent Williams’s Complaint as a
result of Plaintiff s status as an-inmate and in forma pauperis request. The Court now
reviews the Complaint to determine whether it should be summarily dismissed in whole
or in part under 28 U.S.C. §§ 1915 and 1915A. Having reviewed the record, and
otherwise being fully informed, the Court enters the following Order directing Plaintiff to
file an amended complaint if Plaintiff intends to proceed.
1.

Screening Requirement
The Court must review complaints filed by prisoners seeking relief against a

governmental entity or an officer or employee of a governmental entity, as well as
complaints filed in forma pauperis, to determine whether summary dismissal is
appropriate. The Court must dismiss a complaint or any portion thereof that states a
frivolous or malicious claim, fails to state a claim upon which relief may be granted, or
seeks monetary relief from a defendant who is immune from such relief. 28 U.S.C.
§§ 1915(e)(2)(B) &1915A(b).
INITIAL REVIEW ORDER BY SCREENING JUDGE -1

2.

Pleading Standard
A complaint must contain “a short and plain statement of the claim showing that

the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). A complaint fails to state a claim
for relief under Rule 8 if the factual assertions in the complaint, taken as true, are
insufficient for the reviewing court plausibly “to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009). “Threadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Id. In other words, although Rule 8 “does not
require detailed factual allegations,... it demands more than an unadorned, the-defendantunlawfully-harmed-me accusation.” Id. (internal quotation marks omitted). If the facts
pleaded are “merely consistent with a defendant’s liability,” or if there is an “obvious
alternative explanation” that would not result in liability, the complaint has not stated a
claim for relief that is plausible on its face. Id. at 678, 682 (internal quotation marks
omitted).
3.

Governing Legal Standards
Plaintiff brings claims under 42 U.S.C. § 1983, the civil rights statute. To state a

plausible civil rights claim, a plaintiff must allege a violation of rights protected by the
Constitution or created by federal statute proximately caused by conduct of a person
acting under color of state law. Crumpton v. Gates, 947 F.2d 1418, 1420 (9th Cir. 1991).
To be liable under § 1983, “the defendant must possess a purposeful, a knowing, or
possibly a reckless state of mind.” Kingsley v. Hendrickson, 135 S. Ct. 2466, 2472
(2015). Negligence is not actionable under § 1983, because a negligent act by a public
INITIAL REVIEW ORDER BY SCREENING JUDGE - 2

official is not an abuse of governmental power but merely a “failure to measure up to the
conduct of a reasonable person.” Daniels v. Williams, 474 U.S. 327, 332 (1986).
As an essential element of a § 1983 claim, the plaintiff must show that the
defendants’ actions caused the injury ofwhich the plaintiff complains. 42 U.S.C. § 1983;
Arnold v. International Business Machines Corp., 637 F.2d 1350,1355 (9th Cir. 1981)
(“A person ‘subjects’ another to the deprivation of a constitutional right, within the
meaning of § 1983, if he does an affirmative act, participates in another’s affirmative
acts, or omits to perform an act which he is legally required to do that causes the
deprivation....”) (internal quotation omitted); Jones, 245 P.3d at 1012. For this reason,
prison officials and prison medical providers generally are not liable for damages in their
individual capacities under § 1983 unless they personally participated in the alleged
constitutional violations. Taylor v. List, 880 F.2d 1040, 1045 (9th Cir. 1989); see also
Iqbal, 556 U.S. at 677 (“[E]ach Government official, his or her title notwithstanding, is
only liable for his or her own misconduct.”). The doctrine of respondent superior, which
holds that an employer can be held liable for the unlawful actions of his employees, does
not apply to claims under § 1983. See, e.g., Fairley v. human, 281 F.3d 913, 916 (9th Cir.
2002).

“A defendant may be held liable as a supervisor under § 1983 ‘if there exists either
(1) his or her personal involvement in the constitutional deprivation, or (2) a sufficient
causal connection between the supervisor’s wrongful conduct and the constitutional
violation.’” Starr v. Baca, 652 F.3d 1202, 1207 (9th Cir. 2011) (quoting Hansen v. Black,
885 F.2d 642,646 (9th Cir. 1989)). This causal connection “can be established by setting
INITIAL REVIEW ORDER BY SCREENING JUDGE ■ 3

in motion a series of acts by others, or by knowingly refusing to terminate a series of acts
by others, which the supervisor knew or reasonably should have known would cause
others to inflict a constitutional injury.” Id. at 1207-08 (internal quotation marks, citation,
and alterations omitted).
Defendants who were involved in reviewing claims in the administrative grievance
process may or may not have liability for the constitutional violations complained of
regarding the grievances they processed, depending upon (1) the type and timing of
problem complained of and (2) the role of the defendant in the process. For example, a
grievance appeals coordinator cannot cause or contribute to a completed constitutional
violation that occurred in the past and that is not remediable by any action the reviewer
might take. See, e.g., George v. Smithy 507 F.3d 605, 609-610 (7th Cir. 2007) (“A guard
who stands and watches while another guard beats a prisoner violates the Constitution; a
guard who rejects an administrative complaint about a completed act of misconduct does
not”). If, however, the defendant “knew of an ongoing constitutional violation and ... had
the authority and opportunity to prevent the ongoing violation” yet failed to act to remedy
the violation, then the defendant may be held liable under § 1983. See Herrera v. Hall,
2010 WL 2791586 at *4 (citing Taylor v. List, 880 F.2d 1040, 1045 (9th Cir. 1989).
A claim that a supervisor or training official failed to adequately train subordinates
ordinarily requires that, “in light of the duties assigned to specific officers or
employees[,] the need for more or different training [was] so obvious, and the inadequacy
so likely to result in the violation of constitutional rights, that the [supervisor or training
official] can reasonably be said to have been deliberately indifferent to the need.” City of
INITIAL REVIEW ORDER BY SCREENING JUDGE - 4

Canton v. Harris, 489 U.S. 378, 390 (1989). That is, to maintain a failure-to-train claim,
a plaintiff must allege facts showing a “pattern of violations” that amounts to deliberate
indifference. Connick v. Thompson, 563 U.S. 51, 72 (2011). Likewise, “a failure to
supervise that is sufficiently inadequate may amount to deliberate indifference” that
supports a § 1983 claim, but there generally must be a pattern of violations sufficient to
render the need for further supervision obvious. Dougherty v. City of Covina, 654 F.3d
892, 900 (9th Cir. 2011) (internal quotation marks omitted). That is, if a supervisory or
training official had “knowledge of the unconstitutional conditions” through such a
pattern of violations—including knowledge of the “culpable actions of his
subordinates”—yet failed to act to remedy those conditions, that official can be said to
have acquiesced “in the unconstitutional conduct of his subordinates” such that a causal
connection between the supervisor and the constitutional violation is plausible. Starr,
652 F.3d at 1208.
To bring a § 1983 claim against a municipality (a local governmental entity) or a
private entity performing a government function, a plaintiff must allege that the execution
of an official policy or unofficial custom inflicted the injury of which the plaintiff
complains, as required by Monell v. Department of Social Semices of New York, 436 U.S.
658, 694 (1978). See also Tsao v. Desert Palace, Inc., 698 F.3d 1128, 1139 (9th Cir.
2012) (applying Monell to private entities performing a government function). Under
Monell, the requisite elements of a § 1983 claim against a municipality or private entity
performing a state function are the following: (1) the plaintiff was deprived of a
constitutional right; (2) the municipality or entity had a policy or custom; (3) the policy
INITIAL REVIEW ORDER BY SCREENING JUDGE - 5

or custom amounted to deliberate indifference to plaintiffs constitutional right; and (4)
the policy or custom was the moving force behind the constitutional violation. Mate v.
San Bernardino Cnty., 237 F.3d 1101, 1110-11 (9th Cir. 2001).
An unwritten policy or custom must be so “persistent and widespread” that it
constitutes a “permanent and well settled” practice. Monell, 436 U.S. at 691 (quoting
Adickes v. S.H. Kress & Co.y 398 U.S. 144, 167-168 (1970)). “Liability for improper
custom may not be predicated on isolated or sporadic incidents; it must be founded upon
practices of sufficient duration, frequency and consistency that the conduct has become a
traditional method of carrying out policy.” Trevino v. Gates, 99 F.3d 911,918 (9th Cir.
1996).
A plaintiff cannot simply restate these standards of law in a complaint. Instead, a
plaintiff must provide specific facts supporting the elements of each claim and must
allege facts showing a causal link between each defendant and Plaintiffs injury or
damage. Alleging “the mere possibility of misconduct” is not enough. Iqbal, 556 U.S. at
679.
Plaintiff asserts his § 1983 claims under the First, Eighth, and Fourteenth
Amendments to the United States Constitution.1 Dkt. 2 at 4.

i

Though Plaintiff also asserts Fourth Amendment violations, the Complaint does not allege a plausible
claim under that amendment, which prohibits unreasonable searches and seizures. Prisoners have no
reasonable expectation of privacy in their prison cells; additionally, “[pjrison officials must be free to
seize from cells any articles which, in their view, disserve legitimate institutional interests.” Hudson v.
Palmer, 468 U.S. 517, 526, 528 n.8 (1984). Further, to the extent Plaintiff asserts claims under the Health
Insurance Portability and Accountability Act (“HIPAA”), any such claims are implausible because
HIPAA does not provide a private right of action. Seaton v. Mayberg, 610 F.3d 530, 533 (9th Cir. 2010).

INITIAL REVIEW ORDER BY SCREENING JUDGE - 6

i.

Eighth Amendment Claims of Unconstitutional Conditions of
Confinement

The Eighth Amendment protects prisoners against cruel and unusual punishment.
Although prison conditions may be restrictive—even harsh—without violating the Eighth
Amendment, prison officials are required to provide prisoners with adequate food,
clothing, shelter, sanitation, medical care, and personal safety. Rhodes v. Chapman, 452
U.S. 337, 347 (1981); Hoptowitv. Ray, 682F.2d 1237,1246 (9th Cir. 1982), abrogated
on other grounds bySandin v, Conner, 515 U.S. 472 (1995).
To state a claim under the Eighth Amendment, prisoners must show that they are
“incarcerated under conditions posing a substantial risk of serious harm,” or that they
have been deprived of “the minimal civilized measure of life’s necessities” as a result of
the defendants’ actions. Farmer v. Brennan, 511 U.S. 825, 834 (1994) (internal quotation
marks omitted). An Eighth Amendment claim requires the plaintiff to satisfy both (1) an
objective standard, “that the deprivation was serious enough to constitute cruel and
unusual punishment, and (2) a subjective standard, that the defendant acted with
. “deliberate indifference.” Snow v. McDaniel, 681 F.3d 978, 985 (9th Cir. 2012),
overruled in part on other grounds by Peralta v. Dillard, 744 F.3d 1076 (9th Cir. 2014)
(en banc).
As for objective prong of the analysis, “[n]ot every governmental action affecting
the interests or well-being of a prisoner is subject to Eighth Amendment scrutiny.”
Whitley v. Albers, 475 U.S. 312, 319 (1986). Rather, the deprivation alleged must be

INITIAL REVIEW ORDER BY SCREENING JUDGE - 7

. I

objectively sufficiently harmful or, in other words, sufficiently “grave” or “serious.”
Wilson v. Setter, 501 U.S. 294, 298 (1991).
With respect to the subjective prong of an Eighth Amendment violation,
“deliberate indifference entails something more than mere negligence, [but] is satisfied
by something less than acts or omissions for the very purpose of causing harm or with
knowledge that harm will result.” Farmer, 511 U.S. at 835. “To be cruel and unusual
punishment, conduct that does not purport to be punishment at all must involve more than
ordinary lack of due care for the prisoner’s interests or safety.” Whitley, 475 U.S. at 319.
To exhibit deliberate indifference, a defendant “must both be aware of facts from
which the inference could be drawn that a substantial risk of serious harm exists, and he
must also draw the inference.” Farmer, 511 U.S. at 837. If a [prison official] should have
been aware of the risk, but was not, then the [official] has not violated the Eighth
Amendment, no matter how severe the risk.” Gibson v. Cty. of Washoe, 290 F.3d 1175,
1188 (9th Cir. 2002), overruled on other grounds by Castro v. Cty. ofLos Angeles, 833
F.3d 1060 (9th Cir. 2016).
n.

First Amendment Claims

In Turner v. Safley, 482 U.S. 78 (1987), the U.S. Supreme Court outlined the
standard governing First Amendment claims of incarcerated individuals. In that case, the
Court examined a free speech issue in the context of prison officials prohibiting
correspondence between inmates residing at different state institutions. The Court held
that “when a prison regulation impinges on inmates’ constitutional rights, the regulation
is valid if it is reasonably related to legitimate penological interests.” Id. at 89.
INITIAL REVIEW ORDER BY SCREENING JUDGE - 8

i

The Turner Court identified four factors to consider when determining whether
such a regulation is valid: (1) whether there is a “rational connection between the prison
regulation and the legitimate governmental interest put forward to justify it”; (2) whether
“there are alternative means of exercising the right that remain open to prison inmates”;
(3) what “impact accommodation of the asserted constitutional right will have on guards
and other inmates, and on the allocation of prison resources generally”; and (4) whether
“ready alternatives” at a “de minimis cost” exist, which “may be evidence that the
regulation is not reasonable, but is an exaggerated response to prison concerns.” Id. at 8993.
The Turner analysis appropriately allows prison officials substantial leeway in the
management of their prisons because “[subjecting the day-to-day judgments of prison
officials to an inflexible strict scrutiny analysis would seriously hamper their ability to
anticipate security problems and to adopt innovative solutions to the intractable problems
of prison administration.” Id. at 89. Federal courts must apply the Turner test in a way
that “accord[s] great deference to prison officials’ assessments of their interests.”
Michenfelder v. Sumner, 860 F.2d 328, 331 (9th Cir. 1988).
o)

Right to Petition for Redress

The right to free speech under the First Amendment to the United States
Constitution includes the right to petition the government for redress. The right to petition
applies to incarcerated individuals and includes the right to use a prison grievance
process, if such a process exists. Bradley v. Hall, 64 F.3d 1276, 1279 (9th Cir.
1995), abrogated on other grounds by Shaw v. Murphy, 532 U.S. 223, 230 n.2 (2001).
INITIAL REVIEW ORDER BY SCREENING JUDGE - 9

However, frivolous “grievances” do not qualify as petitions for redress and, therefore, are
not protected by the First Amendment. Jones v. Williams, 791 F.3d 1023, 1035 (9th Cir.
2015) (“Prisoners’ grievances, unless frivolous, concerning the conditions in which they
are being confined are deemed petitions for redress of grievances and thus are protected
by the First Amendment.”) (quoting Hasan v. U.S. Dep’t ofLabor, 400F.3d 1001,1005
(7th Cir. 2005) (internal quotation marks omitted).2 Because frivolous grievances are not
protected by the First Amendment, and because negligence is insufficient to state a
constitutional claim under § 1983, a prison official who refuses to process a grievance
that the official subjectively—even if mistakenly—believed was frivolous, then that
defendant, having acted only negligently, has not violated the prisoner’s right to petition
the government for redress.3
Although it appears that the Ninth Circuit Court of Appeals has not yet found a
legitimate penological interest that supports policies prohibiting disrespectful language in
prison grievances, see Brodheim v. Cry, 584 F.3d 1262, 1273 (9th Cir. 2009), that court
recently stated that Brodheim's protection of disrespectful language “relates only to the

2 As the Court has explained in another of Plaintiff s cases, grievances that are nothing more than a string
of insults do not constitute substantive grievances and, thus, also fail to qualify as protected petitions for
redress under the First Amendment See Williams v. Fox, Case No. l:16-cv-00l43-DCN, Dkt. 115 at 1011 (D. Idaho Sept. 28, 2018) (“Although Plaintiff alleges that each of the two grievance forms grieved a
specific issue, Defendant states that they did not. Instead, Defendant contends that the grievances
contained only insults directed at prison staff. Therefore, Defendant has raised a genuine dispute as to
whether the grievance forms actually contained a substantive grievance.”) (internal quotation marks,
citations, and footnote omitted).
3 Such action by the prison official would, however, excuse the plaintiff from the exhaustion requirement
of 42 U.S.C. § 1997e(a), because the grievance process was effectively unavailable to the plaintiff. Ross
v. Blake, 136 S. Ct. 1850,1859 (2016) (stating that an inmate must exhaust “those, but only those,
grievance procedures that are ‘capable of use* to obtain ‘some relief for the action complained of.’”)
(quoting Booth v. Churner, 532 U.S. 731, 738 (2001).

INITIAL REVIEW ORDER BY SCREENING JUDGE - 10

narrow category of cases dealing with prison grievances.” Richey v. Dahne, 733 F. App’x
881, 884 (9th Cir. April 25, 2018) (unpublished) (emphasis added). Therefore, if an
inmate uses disrespectful language in some other context—such as in a frivolous writing
that does not qualify as a substantive grievance—then the government may indeed have
“legitimate penological concerns related to the security of guards and the desirability of
maintaining harmonious relationships between guards and prisoners to the extent
possible ” Id.
b)

Right to Access the Courts

Prisoners have a right to access the courts under the First and Fourteenth
Amendments. See Bounds v. Smiths 430 U.S. 817, 821 (1977). However, because the
right of access to the courts is not an “abstract, freestanding right to a law library or legal
assistance, an inmate cannot establish relevant actual injury simply by establishing that
his prison’s law library or legal assistance program is subpar in some theoretical sense.”
Lewis v. Casey, 518 U.S. 343, 351 (1996).
To state a viable access-to-courts claim, a plaintiff must plausibly allege that he
suffered an actual injury as a result of the defendant’s actions. Id. at 349. Actual injury
may be manifest if the alleged denial of access “hindered [the plaintiffs] efforts to pursue
a legal claim,” such as having his complaint dismissed “for failure to satisfy some
technical requirement,” or if he “suffered arguably actionable harm that he wished to
bring before the courts, but was so stymied by [the defendants’ actions] that he was
unable even to file a complaint.” Id. at 351. The Constitution does not require that
inmates “be able to conduct generalized research,” nor does it “guarantee inmates the
INITIAL REVIEW ORDER BY SCREENING JUDGE - 11
s

wherewithal to transform themselves into litigating engines.” Id. at 355, 360. Rather, the
right of access to the courts requires only that inmates “be able to present their grievances
to the courts—a more limited capability that can be produced by a much more limited
degree of legal assistance.”/</. at 360 (emphasis added). Further, as with all § 1983
claims, a plaintiff cannot state an access to courts claim by alleging that a negligent act
by a government official caused the actual injury of which the plaintiff complains. Krug
v. Lewis, 852 F.2d 571 (Table), 1988 WL 74699, *1 (9th Cir. July 6,1988) (“While
prisoners have a due process right of access to the courts, the negligent act of a public
official does not violate that right.”) (unpublished) (citing Daniels, 474 U.S. at 333).
The right of access to the courts is limited and applies only to direct appeals from
convictions for which the inmates are incarcerated, habeas petitions, and civil rights
actions regarding prison conditions. Lewis, 518 U.S. at 354-55; Silva v. Di Vittorio, 658
F.3d 1090, 1103 (9th Cir. 2011) (“[Prisoners have a right under the First and Fourteenth
Amendments to litigate claims challenging their sentences or the conditions of their
confinement to conclusion without active interference by prison officials.”) (emphasis
omitted), abrogated on other grounds by Coleman v. Tollefson, 135 S. Ct. 1759 (2015).
Thus, “[impairment of any other litigating capacity is simply one of the incidental (and
perfectly constitutional) consequences of conviction and incarceration.” Lewis, 518 U.S.
at 355 (emphasis omitted).
Claims of denial of access to the courts may arise from the frustration or hindrance
of “a litigating opportunity yet to be gained” (forward-looking access claim) or from the
loss of a suit that now cannot be tried (backward-looking claim). Christopher v. Harbury,
INITIAL REVIEW ORDER BY SCREENING JUDGE - 12

536 U.S. 403,413-15 (2002). To state an access to courts claim that a prisoner suffered
the loss of a suit that now cannot be brought, the prisoner must allege specific facts
supporting three elements: (1) official acts that frustrated the inmate’s litigation activities;
(2) loss of a “nonfrivolous” or “arguable” underlying claim that must be set forth in the
federal complaint, including the level of detail necessary “as if it were being
independently pursued”; and (3) specific allegations showing that the remedy sought in
the access to courts claim is not otherwise available in another suit that could be brought.
Id. at 415-17. “There is, after all, no point in spending time and money to establish the
facts constituting denial of access when a plaintiff would end up just as well off after
litigating a simpler case without the denial-of-access element.” Id. at 415.
A prisoner asserting an access to courts claim must also allege facts showing that
the alleged violation of his rights was proximately caused by a state actor. Phillips v.
Bust, All F.3d 1070, 1077 (9th Cir. 2007), vacated on other grounds, Hast v. Phillips,
550 U.S. 1150 (2009); see also Crumpton, 947 F.2d at 1420. The proximate cause
analysis focuses on whether it was foreseeable that the state actor’s conduct would result
in a deprivation of the prisoner’s right of access to the courts. Phillips, All F. 3d at 1077
(citing Tahoe-Sierra Pres. Council, Inc. v. Tahoe Regional Planning Agency, 216 F.3d
764, 784-85 (9th Cir. 2000)),
c)

Right to Be Free from Retaliation

The First Amendment also includes the right to be free from retaliation for
exercising constitutional rights. An inmate asserting a First Amendment retaliation claim
must show the following: “(1)... that a state actor took some adverse action against the
INITIAL REVIEW ORDER BY SCREENING JUDGE - 13

inmate (2) because of (3) that prisoner’s protected conduct,... that such action (4) chilled
the inmate’s exercise of his First Amendment rights, and (5) [that] the action did not
reasonably advance a legitimate correctional goal.” Rhodes v. Robinson, 408 F.3d 559,
567-68 (9th Cir. 2005) (footnote omitted). “[B]are allegations” of a retaliatory motive are
insufficient to support a retaliation claim. Rizzo v. Dawson, 778 F.2d 527, 532 n.4 (9th
Cir. 1985); see also Wood v. Yordy, 753 F.3d 899, 905 (9th Cir. 2014) (“We have
repeatedly held that mere speculation that defendants acted out of retaliation is not
sufficient.”). When analyzing a prison official’s proffered reasons for allegedly
retaliatory conduct, the Court must “afford appropriate deference and flexibility” to that
official. Pratt v. Rowland, 65 F.3d 802, 807 (9th Cir. 1995) (internal quotation marks
omitted).
Not every retaliatory act taken by an official can be considered an adverse action
that chills the exercise of protected speech. The proper inquiry asks whether the official’s
action “would chill or silence a person of ordinary firmness from future First Amendment
activities.” Mendocino Envt’l Ctr. v. Mendocino Cnty., 192 F.3d 1283, 1300 (9th Cir.
1999) (internal quotation marks omitted).
A plaintiff asserting a retaliation claim under § 1983 also “must show a causal
connection between a defendant’s retaliatory animus and [the plaintiff’s] subsequent
injury.” Hartman v. Moore, 547 U.S. 250,259 (2006) {Bivens action). Retaliatory
motivation is not established simply by showing an adverse action by the defendant after
protected speech; rather, the plaintiff must show a nexus between the two. Huskey v. City
ofSan Jose, 204 F.3d 893, 899 (9th Cir. 2000) (stating that a retaliation claim cannot rest
I

INITIAL REVIEW ORDER BY SCREENING JUDGE -14

on “the logical fallacy ofpost hoc, ergo propter hoc, literally, ‘after this, therefore
because of this’”). Therefore, although the timing of an official’s action can constitute
circumstantial evidence of retaliation—if, for example, an adverse action was taken
shortly after the official learned about an inmate’s exercise of protected conduct—there
generally must be something more than mere timing to support an inference of retaliatory
intent. Pratt, 65 F.3d at 808.
The causal nexus requirement of a retaliation claim is a “but-for” causation test. If
the adverse action would have been taken even without the inmate’s exercise of protected
conduct, the plaintiff cannot satisfy the causation element of his claim. Hartman, 547
U.S. at 260,
Finally, even if an inmate proves that his protected conduct was the but-for cause
of an adverse action by a prison official, the inmate’s retaliation claim fails so long as
that action also reasonably advanced a legitimate penological interest. The state
unquestionably has a legitimate interest in maintaining institutional order, safety, and
security in its prisons. Rizzo, 778 F.2d at 532. “The plaintiff bears the burden of pleading
and proving the absence of legitimate correctional goals for the conduct of which he
complains.” Pratt, 65 F.3d at 806.
in.

Fourteenth Amendment Claims
a)

Due Process

The Due Process Clause of the Fourteenth Amendment protects two distinct but
related rights. The right to procedural due process prohibits the govermnent from
depriving an individual of a liberty or property interest without following the proper
INITIAL REVIEW ORDER BY SCREENING JUDGE - 15

i

procedures for doing so. See, e.g., Wolffv. McDonnell, 418 U.S. 539, 558-66 (1974).
Within the prison context, liberty interests are “generally limited to freedom from
restraint which ... imposes atypical and significant hardship on the inmate in relation to
the ordinary incidents of prison life.” Sandin v. Conner, 515 U.S. 472, 484 (1995).
With respect to a procedural due process claim regarding prison disciplinary
proceedings and disciplinary segregation, a district court must analyze three factors in
determining whether a prisoner has or had a liberty interest in avoiding discipline;
(1) whether disciplinary segregation was essentially the same as discretionary forms of
segregation (such as administrative segregation and protective custody); (2) whether a
comparison between the plaintiffs confinement and conditions in the general population
showed that the plaintiff suffered no “major disruption in his environment”; and
(3) whether the length of the plaintiffs sentence was affected. Id. at 486-87. If these
factors are not met, a court may find there is no liberty interest in avoiding prison
discipline, which means that a prisoner has no due process claim arising from the
disciplinary proceeding. Applying these factors in Sandin, the Supreme Court determined
that a prisoner lacked a protectable liberty interest in avoiding 30 days of confinement in
disciplinary segregation. Id. at 487.
If a prisoner possesses a protectable liberty interest, then a court must consider the
process to which the prisoner was due. This determination must be made on a case-bycase basis. Wolffv. McDonnell, 418 U.S. 539, 560 (1974) (“Consideration of what
procedures due process may require under any given set of circumstances must begin
with a determination of the precise nature of the government function involved as well as
INITIAL REVIEW ORDER BY SCREENING JUDGE - 16

of the private interest that has been affected by governmental action.”) (internal quotation
marks and alteration omitted). The “essence of due process” is notice and an opportunity
to be heard. Mathews v. Eldridge, 424 U.S. 319, 348 (1976). The specific process to
which a person is entitled depends on the consideration of three factors: (1) the private
interest... affected by the official action”; (2) “the risk of an erroneous deprivation of
such interest through the procedures used[] and the probable value, if any, of additional
or substitute procedural safeguards”; and (3) “the Government’s interest, including the
function involved and the fiscal and administrative burdens that the additional or
substitute procedural requirement would entail.” Id. at 335.
In addition to procedural due process, the Due Process Clause guarantees the right
to substantive due process, which protects individuals horn being deprived of certain
interests notwithstanding the procedures followed. Blaylock v. Schwinden, 862 F.2d
1352, 1354 (9th Cir. 1988). A substantive due process violation is one which “shocks the
conscience.” Wood v. Ostrander, 879 F.2d 583, 591 n.8 (9th Cir. 1989). It occurs in a
situation in which “the government’s action was clearly arbitrary and unreasonable,
having no substantial relation to the public health, safety, morals, or general welfare.”
Sinaloa Lake Owners Ass’n v. City ofSimi Valley, 864 F.2d 1475, 1484 (9th Cir. 1989)
(internal quotation marks omitted).
b)

Equal Protection

The Fourteenth Amendment also includes the Equal Protection Clause. The
purpose of that clause “is to secure every person within the State’s jurisdiction against
intentional and arbitrary discrimination, whether occasioned by express terms of a statute
INITIAL REVIEW ORDER BY SCREENING JUDGE - 17

or by its improper execution through duly constituted agents.” Village ofWillowbrook v.
Olech, 528 U.S. 562, 564 (2000) (internal citation and quotation marks omitted). Under
the Equal Protection Clause, “all persons similarly circumstanced shall be treated alike”
by governmental entities. F.S. Royster Guano Co. v. Virginia, 253 U.S. 412,415 (1920).
However, “[t]he Constitution does not require things which are different in fact or
opinion to be treated in law as though they were the same.” Tigner v. Texas, 310 U.S.
141,147(1940).
Equal protection claims alleging disparate treatment or classifications generally
are subject to a heightened standard of scrutiny if they involve a “suspect” or “quasi­
suspect” class, such as race, national origin, or sex, or when they involve a burden on the
exercise of fundamental personal rights protected by the Constitution. See, e.g., City of
Cleburne v. Cleburne Living Ctr., Inc., 473 U.S. 432, 440 (1985). Otherwise, equal
protection claims generally are subject to a rational basis inquiry. See Heller v. Doe, 509
U.S. 312, 319-20(1993).
In a rational basis analysis, the relevant inquiry is whether Defendants’ action is
“patently arbitrary and bears no rational relationship to a legitimate governmental
interest.” Vermouth v. Corrothers, 827 F.2d 599, 602 (9th Cir. 1987) (quotation omitted).
Under this rational basis test, Plaintiff can prevail only if he is similarly situated with
persons who are treated differently by Defendants, and if Defendants have no rational
basis for the disparate treatment. Stated another way, prison officials need show only a
rational basis for dissimilar treatment in order to defeat the merits of Plaintiff s claim. Id.
In addition to the deference inherent in a rational basis inquiry, an additional layer of
INITIAL REVIEW ORDER BY SCREENING JUDGE - 18

deference to prison officials is required under Turner, 482 U.S. at 89-91. See Walker v.
Gomez, 370 F.3d 969,974 (9th Cir. 2004) (“In the prison context,... even fundamental
rights such as the right to equal protection are judged by a standard of reasonableness—
specifically, whether the actions of prison officials are reasonably related to legitimate
penological interests.” (quotation omitted)).
Even where similarly-situated persons are treated differently by the state, “state
action is presumed constitutional and ‘will not be set aside if any set of facts reasonably
may be conceived to justify it.’” More v. Farrier, 984 F.2d 269, 271 (9th Cir. 1993)
(quoting McGowan v. Maryland, 366 U.S. 420, 426 (1961)). Absent evidence of
invidious discrimination, the federal courts should defer to the judgment of prison
officials. See id. at 277; Youngbear v. Thalacker, 174 F. Supp. 2d 902, 916 (D. Iowa
2001) (“There can be no ‘negligent* violations of an individual’s right to equal
protection.... There is no evidence from which the court may infer that the defendants’
asserted reasons for delaying the construction of a sweat lodge at the [prison] were a
pretext for discrimination.”).
4.

Discussion
Plaintiff has not alleged sufficient facts to proceed on the Complaint. The Court

will grant Plaintiff 28 days to amend the Complaint. Any amended complaint should take
into consideration the following.

INITIAL REVIEW ORDER BY SCREENING JUDGE - 19

A.

Eighth Amendment Suicide Watch Claims
1.

Factual Allegations

Plaintiff alleges that, on May 23, 2016, he arrived at the prison intake unit to begin
a life sentence on a state criminal conviction. He thought it was demeaning that every
form and every person in intake asked him if he was suicidal. After answering the
question twice in 30 minutes, Plaintiff refused to answer a nurse’s question about whether
he was suicidal. Plaintiff told the nurse that it was none of her business.
A clinician then asked Plaintiff if he was suicidal. Plaintiff again refused to answer
other than to say it was none of the clinician’s business. The clinician told Plaintiff that it
was part of IDOC’s policy to place new inmates on suicide watch if they did not
cooperate in the intake unit process. Plaintiff asked if this policy was a punishment and a
form of coercion to get him to answer the intake questions, and the clinician responded,
“That’s one way to look at it.” Dkt. 2, p. 7.
Plaintiff was approved for suicide watch. He complains that the suicide cells are in
full view of other inmates in the dayroom, and that a particular inmate is assigned as a
suicide watcher. The suicide watcher must watch the inmates around the clock and
document in writing what is observed, including use of the toilet. Inmates under suicide
watch must wear a short suicide smock for clothing, with a canvas bag for sleeping.
Plaintiff complains that the “bedding is far below the quality of standard bedding.” Id., p.
8.

INITIAL REVIEW ORDER BY SCREENING JUDGE - 20

Every 72 hours, inmates are allowed a shower with a toothbrush and soap. Inmates
are allowed three squares of toilet paper three times a day. There is no other out-of-cell
time. The lighting in the unit is very bright and is never dimmed.
Plaintiff was kept on suicide watch for eight days. Every day a clinician would
come to his cell and ask him whether he was suicidal. Plaintiff continued to respond,
“none of your business.” Id., p. 10. Plaintiff was taken to disciplinary segregation after
eight days.
Plaintiff alleges that he was not permitted to appeal his placement in the suicide
watch unit. He was not permitted inmate grievances and was not permitted to contact the
courts. He could not possess legal papers. He was not permitted to send personal
correspondence.
Plaintiff alleges that the clinicians kept him on suicide watch “knowing there was
no evidence [he] was suicidal, or a threat to [himself] and contrary to [his] mental and
physical well-being and statutory and constitutional rights.” Id., p. 11.
\

On June 9, 2016, a nurse and/or clinician asked Plaintiff if he was suicidal.
Plaintiff alleges: “I told each one that I refuse to answer and/or ‘it’s none of your
business.’” Id. He was again placed on suicide watch. Plaintiff alleges that there was no
indication that he was suicidal, and that “[a] no answer is not an affirmative answer or
evidence of being suicidal.” Id.
The only difference in Plaintiffs second tour of the suicide watch unit was that the
imnate assigned to watch him could write concern forms for him. Id., p. 12. He was
released from suicide watch after five days. He was returned to disciplinary segregation.
INITIAL REVIEW ORDER BY SCREENING JUDGE - 21
i

This same set of circumstances was repeated in August, and Plaintiff was sent to
suicide watch from August 25,2016, to September 6, 2016, a period of eight days.
During that time, clinicians continued to ask Plaintiff if he was suicidal each day, and
Plaintiff continued to refuse to answer.
Plaintiff was again placed on suicide watch for the same reason from April 11,
2017, to April 29,2017, a period of nineteen days. Plaintiff alleges that every clinician
told him that they knew he was not suicidal, but that he would not be released until he
said “no” to the question. Plaintiff alleges that “[t]he plan was to use the extremely
mentally and physically oppressive conditions of suicide watch to break me to tell them
‘no’ when asked in the future when asked if I am suicidal.” Id., p. 13.
li.

The Current Suicide Watch Allegations Do Not State a Plausible
Claim for Relief

Plaintiff states that there was no evidence he was suicidal or a threat to himself
and that, therefore, his placement, on several occasions, on suicide watch—with its
attendant restrictions—violated the Eighth Amendment. Contrary to Plaintiffs assertion,
however, the evidence that he might have been suicidal was—in fact—his refusal to
answer the question.
Suicide is something of a national epidemic, and it is a prevalent issue in prisons.
Mental health providers and prison officials cannot—indeed, they must not—take lightly
an inmate’s refusal to answer questions about suicidal ideation. The Court concludes that
Plaintiff has failed to state a claim upon which relief can be granted because he admits
that he refused to answer questions about whether he was suicidal. Thus, his placement

INITIAL REVIEW ORDER BY SCREENING JUDGE - 22

(

on suicide watch—with its necessary limitations—did not violate the Eighth
Amendment. There are no allegations in the Complaint from which a reasonable
factfinder could infer that any Defendant involved in Plaintiffs placement on suicide
watch acted with deliberate indifference. Even if the mental health clinicians or other
defendants suspected that Plaintiff was merely being contrarian, deliberately unhelpful, or
belligerent in refusing to answer their questions about suicidal ideation, the risk that he
really was suicidal remained. In fact, if Defendants had released Plaintiff from suicide
watch before they were absolutely sure he was not suicidal, they could have been acting
with deliberate indifference to a risk ofsuicide.
For these reasons, the current allegations fail to state a plausible claim that any
Defendant acted with deliberate indifference when they placed, and kept, Plaintiff in
suicide watch when he refused to answer whether he was suicidal.
B.

Remaining Claims: First and Fourteenth Amendments

The remainder of Plaintiff s 68-page Complaint centers primarily on free
speech/right-to-petition issues, access-to-courts issues, and retaliation issues. Plaintiff
will not be allowed to proceed on these claims at this time because the Complaint does
not comply with Federal Rule of Civil Procedure 20(a)(2). That rule requires that at least
one claim against all named defendants must “arise out of the same transaction,
occurrence, or series of transactions or occurrences” and raise “a question of law or fact

INITIAL REVIEW ORDER BY SCREENING JUDGE - 23
[

common to all defendants.” Claims that do not meet these criteria must be separated into
different lawsuits.4
The Court will give Plaintiff 28 days to submit an amended complaint that
complies with Rule 20(a)(2). Any claims against any Defendant whose inclusion would
violate Rule 20(a)(2) must be brought, if at all, in new, separate civil actions. For
example, Plaintiff may choose to assert only his suicide-watch claims in the amended
complaint in this case, while asserting his First and Fourteenth Amendment claims in new
civil rights complaints.
5.

Standards for Amended Complaint
Unless otherwise stated in this Order, any amended complaint must comply with

General Order 342 of the United States District Court for the District of Idaho.5
If Plaintiff chooses to amend the Complaint, Plaintiff must demonstrate how the
actions complained of have resulted in a deprivation of Plaintiff s constitutional rights.
See Ellis v. Cassidy, 625 F.2d 227, 229 (9th Cir. 1980), abrogated on other grounds by
Kay v. Ehler, 499 U.S. 432 (1991). Plaintiff must allege a sufficient causal connection
between each defendant’s actions and the claimed deprivation. Taylor, 880 F.2d at 1045;
Johnson v. Duffy, 588 F.2d 740, 743 (9th Cir. 1978). “Vague and conclusory allegations

4 See, e.g., George v Smithy 507 F.3d 605, 607 (7th Cir. 2007) (in PLRA context: “A buckshot complaint
that would be rejected if filed by a free person—say, a suit complaining that A defrauded the plaintiff, B
defamed him, C punched him, D failed to pay a debt, and E infringed his copyright, all in different
transactions—should be rejected if filed by a prisoner.”).
5 Though Plaintiffs Complaint was filed before the adoption of General Order 342, the Court notifies
Plaintiff of its intent to apply that General Order to any amended complaint in this case, which—of
course—would be filed after the adoption of the General Order. The Clerk will be directed to provide
Plaintiff with a copy of General Older 342.
INITIAL REVIEW ORDER BY SCREENING JUDGE - 24

of official participation in civil rights violations are not sufficient to withstand a motion
to dismiss” or to survive screening under 28 U.S.C. §§ 1915 and 1915A. Ivey v. Bd. of
Regents ofUniv. ofAlaska, 673 F.2d 266, 268 (9th Cir. 1982); see also Iqbal, 556 U.S. at
678 (“Nor does a complaint suffice if it tenders naked assertions devoid of further factual
enhancement.” (internal quotation marks and alteration omitted)).
Plaintiff cannot simply sprinkle the names of defendants throughout the amended
complaint. Rather, he must show how all the elements of his cause of action apply to each
particular defendant. A pleading is more understandable if it is organized by claim for
relief and defendant, rather than in a story format.
Therefore, for each claim against each defendant, Plaintiff must state the following
(organized by each defendant); (1) the name of the person or entity Plaintiff claims to
have caused the alleged deprivation of his constitutional rights; (2) the facts showing that
the defendant is a state actor (such as state employment or a state contract) or a private
entity or private individual acting under color of state law; (3) the dates on which the
conduct of the defendant allegedly took place6; (4) the specific conduct or action Plaintiff
alleges is unconstitutional; (5) the particular constitutional or statutory provision Plaintiff
alleges has been violated; (6) facts plausibly alleging that the elements of the violation

6 Every act complained of in any amended complaint must refer to the date on which each Defendant
undertook each particular action, so that the applicable statutes of limitation can be considered for the
various claims for relief.

INITIAL REVIEW ORDER BY SCREENING JUDGE - 25

are met; (7) the injury or damages Plaintiff personally suffered; and (8) the particular type
of relief he is seeking from each defendant.7
This format must be followed for the first defendant and the first claim for relief
against that defendant, and then Plaintiff must follow the same format for each different
claim for relief against the first defendant. Plaintiff is not permitted to assert more than
one constitutional provision per claim for relief; he must assert each separately as its own
claim for relief. Each constitutional claim for relief is different, with different elements to
meet. Accordingly, each such claim must be separated into a separate claim for relief.
Plaintiff shall not include any laundry list of constitutional violations in one sentence, one
paragraph, or one claim for relief section.
Plaintiff must follow the same format for each claim he intends to assert against
each additional defendant.
With respect to his access-to-courts and right-to-petition claims that involve a
concern form or grievance, Plaintiff should attach a copy of each concern form or
grievance at issue—to the extent he has such copies. This will help the Court determine
whether Plaintiff has stated a plausible claim with respect to his prison grievance
allegations.
Further, any amended complaint must contain all of Plaintiff s allegations in a
single pleading and cannot rely upon, attach, or incorporate by reference other pleadings
or documents, except as otherwise allowed by this Order. See Dist. Idaho Loc. Civ. R.

7 In addition, if Plaintiff desires to sue a municipality or a private entity performing a state function,
Plaintiff must include plausible facts to support a showing of the Monell requirements, as set forth above.

INITIAL REVIEW ORDER BY SCREENING JUDGE - 26

15.1 (“Any amendment to a pleading, whether filed as a matter of course or upon a
motion to amend, must reproduce the entire pleading as amended. The proposed amended
pleading must be submitted at the time of filing a motion to amend.”); see also Forsyth v.
Humana, Inc., 114 F.3d 1467, 1474 (9th Cir. 1997) (“[An] amended complaint
supersedes the original, the latter being treated thereafter as non-existent.”), overruled in
part on other grounds by Lacey v. Maricopa County, 693 F.3d 896, (9th Cir. 2012) (en
banc); Hal Roach Studios, Inc. v. Richard Feiner and Co., Inc., 896 F.2d 1542,1546 (9th
Cir. 1990) (holding that the district court erred by entering judgment against a party
named in the initial complaint, but not in the amended complaint).
Plaintiff must set forth each different factual allegation in a separate numbered
paragraph. The amended complaint must be legibly written or typed in its entirety, and it
should be clearly designated as the “First Amended Complaint.” Plaintiffs name and
address should be clearly printed at the top left corner of the first page of each document
filed with the Court.
If Plaintiff files an amended complaint, Plaintiff must also file a “Motion to
Review the Amended Complaint.” If Plaintiff does not amend within 28 days, or if the
amendment does not comply with Rule 8 or with General Order 342, this case may be
dismissed without further notice. See Knapp v. Hogan, 738 F.3d 1106, 1110 (9th Cir.
2013) (“When a litigant knowingly and repeatedly refuses to conform his pleadings to the
requirements of the Federal Rules, it is reasonable to conclude that the litigant simply
cannot state a claim.”).

INITIAL REVIEW ORDER BY SCREENING JUDGE - 27

ORDER
IT IS ORDERED:
1.

Plaintiff has 28 days within which to file an amended complaint as
described above. If Plaintiff does so, Plaintiff must file (along with the
amended complaint) a Motion to Review the Amended Complaint. If
Plaintiff does not amend within 28 days, this case may be dismissed
without further notice.8 Any amended complaint must be limited to 20
pages.

2.

The Clerk of Court will provide Plaintiff with a copy of General Order 342.
Unless otherwise stated in this Order, Plaintiff must follow the guidelines
of that General Order when preparing and filing his amended complaint.

3.

Plaintiffs Motion for Issuance of Initial Review Order (Diet. 7) is
GRANTED to the extent that this Order has been issued. Prisoner cases are
reviewed in the order in which they are received, but the length of time a
particular case remains in the screening process depends on (1) the caseload
of the particular judge to which the case has been assigned, (2) the caseload
of the court staff working with that judge, and (3) the number of defendants
and the complexity of the causes of action in the complaint.

4.

Because an amended complaint is required for Plaintiff to proceed,
Plaintiffs request for appointment of counsel (contained in the Complaint)

8 If Plaintiff s amendment fails to comply with this Order, this case may also be dismissed, without
further notice, pursuant to Rule 41(b) of the Federal Rules of Civil Procedure.

INITIAL REVIEW ORDER BY SCREENING JUDGE - 28

is DENIED without prejudice. Plaintiff may renew the request for counsel
in an amended complaint.

DATED: April 15,2019

David C. Nye
Chief U.S. District Court Judge

INITIAL REVIEW ORDER BY SCREENING JUDGE - 29

